April 7, 2011

TIMOTHY F. O’REILLY
ACTING VICE PRESIDENT, CONTROLLER

EDWARD L. GAMACHE
MANAGER, MAINTENANCE POLICIES AND PROGRAMS

SUBJECT: Audit Report – Fiscal Year 2010 Financial Statements Audit –
         San Mateo Information Technology and Accounting Service Center
         (Report Number FT-AR-11-008)

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service’s San Mateo, CA Information Technology
and Accounting Service Center (IT/ASC) for the fiscal year (FY) ended
September 30, 2010 (Project Number 10BM004FT000). We conducted this audit in
support of the independent public accounting firm’s (IPA) overall audit opinions on the
Postal Service’s financial statements and internal controls over financial reporting.1 This
audit addressed financial risk. See Appendix A for additional information about this
audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year (CY) 2002 to strengthen public confidence in the
accuracy and reliability of financial reporting. Section 404 of SOX requires management
to state its responsibility for establishing and maintaining an adequate internal control
structure and make an assertion on the effectiveness of the internal control structure
over financial reporting. The Postal Accountability and Enhancement Act of 2006
requires the Postal Service to comply with Section 404 of SOX beginning in FY 2010.
The Board of Governors contracted with the IPA to express an opinion on the Postal
Service’s financial statements and, beginning in FY 2010, that responsibility was
expanded to include an opinion on the Postal Service’s internal control over financial
reporting.




1
 The IPA maintains overall responsibility for testing and reviewing significant San Mateo IT/ASC accounts and
processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure
adequate coverage.
Fiscal Year 2010 Financial Statements Audit –                                                                    FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


Conclusion

During our audit of the San Mateo IT/ASC we noted that:

         The Postal Service’s financial accounting policies and procedures provide for an
         adequate internal control structure2 and comply with accounting principles
         generally accepted in the U.S.;

         Accounting transactions at the San Mateo IT/ASC impacting the general ledger
         account balances for assets, liabilities, equity, income, and expenses of the
         Postal Service are fairly stated in accordance with accounting principles
         generally accepted in the U.S.;

         General ledger account balances conform with the general classification of
         accounts of the Postal Service consistent with that of the previous year; and

         The Postal Service is in compliance with laws and regulations that have a direct
         and material effect on the financial statements taken as a whole.

We did not propose any adjustments, but we did identify issues regarding relocation
service payments and shuttle service payments. In addition, we continued to note
issues with managing capital personal property. These items were not material to the
financial statements and did not affect the overall adequacy of internal controls. Also,
throughout the year we reviewed internal controls over financial reporting and identified
control deficiencies3 regarding vehicle sales requests and eBuy purchases. Because we
considered these controls key,4 any error could impact the IPA’s opinion on internal
controls over financial reporting. Therefore, we brought them to management’s attention
at the time of discovery to assist them with their responsibility for establishing and
maintaining an adequate internal control structure over financial reporting. The IPA
identified additional information system control deficiencies affecting the San Mateo
IT/ASC that were not in the scope of our audit and are not reported here, including
application developers’ write access to the production environment, no post-production
reviews, system administrators ability to change or have full access to systems, and
untimely removal of access to systems. The IPA informed management of these issues
on October 19, 2010.

Relocation Services Payments

The Postal Service did not review supporting documentation for relocation services as
part of the payment process. This occurred because the Postal Service did not have
procedures in place to ensure that invoices the Cartus Corporation (Cartus), its

2
  To ensure key controls are properly designed and operationally effective.
3
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect and correct misstatements on a timely
basis.
4
  A key control is a control that, if it fails, there is at least a reasonable likelihood that a material error in the financial
statement would not be prevented or detected timely.


                                                                2
Fiscal Year 2010 Financial Statements Audit –                                                        FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


relocation management firm (RMF), submitted were supported as recommended by
best practices. The Postal Service paid over $27 million in relocation payments during
FY 2010. See Appendix B for our detailed analysis of this issue and Appendix C for our
calculation of other impact.

We recommend the acting vice president, controller:

1. Ensure that documentation supporting relocation service invoices is reviewed
   through an annual sampling of invoices to ascertain whether the amounts paid are
   accurate. The sample should represent relocation services paid throughout the fiscal
   year.

Management’s Comments

Management agreed with the recommendation but disagreed with categorizing all
relocation expenses incurred in 2010 as disbursements at risk because it is misleading
to the public. They stated they will develop a process to ensure they conduct an annual
formal review of relocation expenses paid throughout the year on completed employee
files. Subsequent discussions with management indicated they would review these files
on a quarterly basis. Management’s target implementation date is September 2012. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issue identified in the report. Regarding
disbursements at risk, this categorization does not mean that the $27 million in
payments were improper. It does indicate, however, that the payments were at a higher
risk because the Postal Service did not have a control in place to ensure invoices were
supported, as recommended by best practices.

Shuttle Service Payments5

Personnel at one of two vehicle maintenance facilities (VMF) tested did not adequately
review or maintain supporting documentation for shuttle service invoices prior to
payment. This occurred because the Postal Service does not have comprehensive
standard operating procedures for reviewing invoices from USAC and for retaining
supporting documentation, so each facility developed its own review procedures. At
both facilities, personnel performed some procedures, but neither method ensured the
accuracy of all billing information. As a result, the Postal Service has no assurance that
the $524,056 paid in FY 2010 for services at one of the VMFs were accurate.6 See


5
  The Postal Service entered into a Vehicle Maintenance Repair Agreement (VMRA) contract with the U.S. Auto Club
(USAC) effective January 1, 2005, for shuttle services, including the transport and movement and towing and hauling
of Postal Service vehicles.
6
  Amounts paid to USAC in FY 2010 totaled approximately $6.9 million.


                                                         3
Fiscal Year 2010 Financial Statements Audit –                                                     FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


Appendix B for our detailed analysis of this topic and Appendix C for our calculation of
other impact.

We recommend the manager, Maintenance Policies and Programs:

2. Develop and implement standard operating procedures for review and retention of
   U.S. Auto Club invoices prior to payment.

Management’s Comments

Management agreed with the recommendation and stated that existing policy requires
proper documentation and reconciliation of all invoices prior to payment. However, to
aid in efficient reconciliation of USAC invoices, they agreed to publish a Vehicle
Maintenance Bulletin that outlines steps for documentation and reconciliation of monthly
USAC invoices prior to payment. Management’s targeted implementation date is
June 2011.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issue identified in the report.

Vehicle Sales Requests

The Postal Service sold vehicles even though Postal Service (PS) Forms 4594, Vehicle
Sales Request and Report, were not always completed and approvals were not always
recorded. Specifically, from our test of 25 disposals by sale, we found that one
PS form 4594 was not prepared and six forms (requesting the sale of eight vehicles) did
not include the signature of the regional approving official.7 Field staff we questioned did
not realize the signatures were required prior to sale. Further, the supervisors did not
adequately verify that the forms were properly prepared and signed prior to sale. The
sale price of the vehicle sold without a completed PS Form 4594 was $2,100, and the
combined sales price of the eight vehicles sold without proper approval signatures was
$13,340. See Appendix C for calculation of other impact.

At the time of our review the IPA and the OIG considered completion and approval of
PS Forms 4594 a key financial reporting control. However, the IPA and the OIG
subsequently determined that the annual vehicle inventory would serve as the key
financial reporting control. Therefore, we did not pursue this issue further than to inform
management.




7
  Postal Service Handbook PO-701, Fleet Management, requires preparation of PS Form 4594 to sell a vehicle. The
form requires the signature of the district manager of Vehicle Maintenance prior to sale.


                                                       4
Fiscal Year 2010 Financial Statements Audit –                                                           FT-AR-11-008
San Mateo Information Technology and Accounting Service Center



eBuy Purchases

Field office personnel did not always retain packing slips or receiving reports as
evidence of receipt of goods purchased via eBuy, or reconcile packing slips to the
monthly eBuy Billing Summary reports.8 Specifically, our test of 12 eBuy purchases
found that personnel at three offices did not retain packing slips as evidence of receipt
of goods and did not reconcile packing slips to monthly eBuy Billing Summary reports.
Without supporting documentation, Postal Service personnel could not verify receipt of
$75,8389 in goods for which they paid. See Appendix C for calculation of monetary
impact. We noted the following:

         For one purchase made in November 2009, the purchaser verified receipt of
         goods to the eBuy order upon receipt. However, the purchaser threw away all
         packing slips prior to January 2010 because his supervisor stated it was
         unnecessary to retain the supporting documentation indefinitely. Further, the
         purchaser did not perform the monthly reconciliation to the eBuy Billing Summary
         because he was not aware of the requirement;

         In a second instance, the previous postmaster advised the purchaser to throw
         away packing slips after verifying receipt of goods. The current postmaster was
         not aware of the eBuy reconciliation requirement; and

         In a third instance the purchaser was unable to locate the packing slip even
         though she verified receipt of goods. The purchaser also did not reconcile
         packing slips to the monthy eBuy Billing Summary reports because she did not
         know how to perform the reconciliation.

Postal Service policy10 requires supporting documentation to be retained for 2 years and
personnel to reconcile eBuy Billing Summary reports with receipt reports. Personnel
stated that they did not receive any guidance on retention periods or reconciliation
procedures.

Management developed an aging report for eBuy purchases effective January 2011.
Also, management plans to implement a compensating control in March 2011 as part of
the eBuy2 system that alerts users to requisitions that are still open (for example, if a
user has not acknowledged receipt of goods in the system).11




8
  Receiving report retention and eBuy Billing Summary report reconciliation were considered key financial reporting
controls at the time of our review. However, the IPA and the OIG subsequently determined other controls served as
key to this process.
9
  The OIG notified field offices of the eBuy record retention and reconciliation requirements in August 2010.
10
   Administrative Support Manual (Issue 13), Chapter 7, Section 722.61c, updated through November 19, 2009; eBuy
“On-Catalog” Payment Reconciliation Procedures, dated March 18, 2008.
11
   The eBuy2 system retains a record of reconciliations and essentially eliminates the need to retain packing slips and
other supporting documentation.


                                                          5
Fiscal Year 2010 Financial Statements Audit –                                                              FT-AR-11-008
San Mateo Information Technology and Accounting Service Center



Progress on Prior Years’ Recommendations

Since FY 2003, we have found that field level controls over the accountability of capital
personal property12 needed improvement.13 The Postal Service has implemented
several actions over the years to improve controls. In FY 2010, management continued
to issue notices in the Postal Bulletin reminding sites of the semiannual capital property
review requirement. Management also replaced Material Service Centers with Asset
Accountability Service Centers (AASC) as a place for employees to obtain technical
guidance.14 Further, they implemented a website to track performance of semiannual
reviews. The website allows personnel with Postal Service intranet access the ability to
view finance and item numbers selected for review and certain cost information;
provides a link to instructions on how to complete semiannual capital property reviews;
contains a link to the AASC website with contact information; allows access to
up-to-date information on the completion status of every semiannual capital property
certification report; and provides up-to-date summary status information on how many
semiannual capital property certification reports were completed by district and area.

During FY 2010, we tested 85 sites for the existence of 620 capital personal property
items and 43 sites for semiannual capital property reviews and found:

         All but one site performed the required semiannual reviews during FY 2010.

         We were unable to locate four property items at four sites.

         Property officers stated that 23 items (including Point-of-Service (POS) machines
         and electronic, maintenance, and retail equipment) were not at the locations
         recorded for them in the Property and Equipment Accounting System (PEAS).
         Based on the property officers’ answers, these items were incorrectly recorded in
         PEAS. We provided these items to the Postal Service to locate.

         Forty items (including POS machines, stamp vending machines, fixed unit
         scanners and bar code readers) assigned to 22 sites were either removed,
         replaced, transferred, disposed or returned. Some items were removed in prior
         years and, in some instances, the sites did not have the documentation to
         confirm the items’ changed status. One responsible official was not aware of
         their responsibility to provide updated information. For these items, we found
         evidence the property was assigned to the locations at some point; however,
         PEAS was not updated to show the current disposition.

12
   Handbook AS-701 describes capital property as items that have service lives of more than 1 year; that can be
identified as a stand-alone item of property throughout its useful life; that have a unit cost of $3,000 or more; and that
depreciate in value.
13
   Fiscal Year 2003 Postal Service Financial Statements Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-04-008, dated February 24, 2004); Fiscal Year 2009 Postal Service Financial
Statements Audit – San Mateo Information Technology and Accounting Service Center (Report Number
FT-AR-10-008, dated February 11, 2010).
14
   Postal Bulletin 22279, dated February 25, 2010.


                                                            6
Fiscal Year 2010 Financial Statements Audit –                               FT-AR-11-008
San Mateo Information Technology and Accounting Service Center



       Three items at one site were not listed in the PEAS.

Because of management’s continuing and recent efforts to improve controls over capital
property and the reviews, we are not making any recommendations at this time. We will
continue to evaluate the effectiveness of management’s efforts as part of our annual
financial statement audit work.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Susan M. Brownell
    Julie S. Moore
    Stephen J. Nickerson
    Jean D. Parris
    Steven R. Phelps
    Corporate Audit and Response Management




                                                 7
Fiscal Year 2010 Financial Statements Audit –                                                        FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The San Mateo IT/ASC is one of three ASCs Postal Service-wide.15 The San Mateo
IT/ASC functions as a large, centralized accounting and disbursement center and its
employees are responsible for accounts payable,16 centralized postage payments,17
capital personal property, motor vehicles, and supply inventory.

We issued separate financial statement audit reports for headquarters and the Eagan
IT/ASCs and will issue a separate financial statement audit report for the St. Louis
IT/ASC. Further, in addition to the overall opinions on the Postal Service’s financial
statements and internal controls over financial reporting, the Board of Governors’ IPA
issued a separate report on its consideration of the Postal Service’s internal controls
and its test of compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of that report was to describe the scope of testing of internal
control over financial reporting and compliance and the results of that testing, not to
provide an opinion on internal controls over financial reporting or on compliance.18 The
OIG issued a separate report for the audit of the FY 2010 information system controls at
the Eagan, San Mateo, and St. Louis IT/ASCs; and the Raleigh Information Technology
Service Center.19

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:20

        Financial accounting policies and procedures of the Postal Service provide for an
        adequate internal control structure21 and comply with accounting principles
        generally accepted in the U.S.

        Accounting transactions at the San Mateo IT/ASC that impact the general ledger
        account balances for assets, liabilities, equity, income, and expenses of the
        Postal Service are fairly stated in accordance with accounting principles
        generally accepted in the U.S.




15
   Other IT/ASCs are in St. Louis, MO and Eagan, MN.
16
   Includes accounting for inventory purchases, contract cleaners, miscellaneous disbursements, commercial credit
cards, relocation, and headquarters and field payables.
17
   The Centralized Account Processing System is an electronic postage payment system that provides business
mailers a method to pay postage at multiple post offices through a centralized account.
18
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
IT/ASCs, field sites, and the Raleigh, NC Information Technology Service Center.
19
   Fiscal Year 2010 Selected Information Technology General Controls (Report Number IT-AR-11-002, dated
January 12, 2011).
20
   The IPA maintains overall responsibility for testing and reviewing significant San Mateo IT/ASC accounts and
processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
21
   To ensure key controls are properly designed and operationally effective.


                                                         8
Fiscal Year 2010 Financial Statements Audit –                                   FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


       General ledger account balances conform to the general classification of
       accounts of the Postal Service on a basis consistent with that of the previous
       year.

       The Postal Service complies with laws and regulations that have a direct and
       material effect on the financial statements taken as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from December 2009 through March 2011 in
accordance with the standards of the Public Company Accounting Oversight Board
(United States) (PCAOB) and standards applicable to financial audits contained in
Government Auditing Standards issued by the comptroller general of the U.S. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also includes obtaining a sufficient understanding of
internal controls to plan the audit and to determine the nature, timing, and extent of
audit procedures to be performed. We believe the evidence obtained provides a
reasonable basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with PCAOB and
Government Auditing Standards may not detect a material misstatement. However, the
IPA and the OIG are responsible for ensuring that appropriate Postal Service officials
are aware of any significant deficiencies that come to our attention. We discussed our
conclusions with management on February 9, 2011, and included their comments
where appropriate.

We relied on computer-generated data from a number of Postal Service financial
systems, including the following:

     Accounting Enterprise Data                         Contract Authoring Management
     Warehouse Reporting                                System
     National Accounting Oracle Financial               PEAS
     Application/Accounts Payable System                Vehicle Management Accounting
     (NAOFA-OAP)                                        System (VMAS)
     Enterprise Imaging and Workflow                    Centralized Account Processing
     System (eIWS)                                      System
     Material Distribution and Inventory                Commercial Check Tracking System
     Management System                                  Program Cost Tracking System
     eBuy                                               Utility Management System
     eBuy2                                              Supplier Order Management System



                                                 9
     Fiscal Year 2010 Financial Statements Audit –                                           FT-AR-11-008
     San Mateo Information Technology and Accounting Service Center



     To assess the reliability of these systems’ data, we performed specific internal control
     and transactions tests, including tracing selected financial information to supporting
     source records. For example, we verified that payments recorded in NAOFA-OAP were
     supported by certified invoices and the amounts were properly applied to the
     appropriate general ledger accounts. We determined the data were sufficiently reliable
     for the purposes of this report.

     PRIOR AUDIT COVERAGE

     We issued the following reports addressing selected financial activities and accounting
     records at the San Mateo IT/ASC.

                                            Final
                           Report                            Monetary
   Report Title                            Report                               Report Results
                           Number                             Impact
                                            Date
Fiscal Year 2009        FT-AR-10-008      02/11/2010               $0   San Mateo ASC personnel did not
Postal Service                                                          compare payee information from PS
Financial Statements                                                    Forms 3533, Application for Refund
Audit – San Mateo                                                       of Fees, Products, and Withdrawal
Information                                                             of Customer Accounts, to
Technology and                                                          supporting documentation to ensure
Accounting Service                                                      payments were addressed to the
Center                                                                  correct customers. Management
                                                                        revised standard operating
                                                                        procedures to include the review of
                                                                        supporting documentation. Further,
                                                                        San Mateo ASC personnel could
                                                                        not validate the total number of
                                                                        invoices and associated dollar
                                                                        values of invoices transmitted by
                                                                        both of the non-mail freight
                                                                        transportation vendors.
                                                                        Management contacted the vendors
                                                                        who began sending e-mail
                                                                        notifications that indicate both the
                                                                        total number and the total value of
                                                                        the invoices. Also, we continued to
                                                                        identify issues with capital personal
                                                                        property. See the “Progress on
                                                                        Prior Years’ Recommendations”
                                                                        section of this report.
Fiscal Year 2008        FT-AR-09-004        12/9/2008              $0   Management continued to improve
Postal Service                                                          semiannual capital property reviews
Financial Statements                                                    and property accountability. See the
Audit – San Mateo                                                       “Progress on Prior Years’
Information                                                             Recommendations” section of this
Technology and                                                          report.
Accounting Service
Center




                                                        10
     Fiscal Year 2010 Financial Statements Audit –                                              FT-AR-11-008
     San Mateo Information Technology and Accounting Service Center



                                            Final
                           Report                            Monetary
    Report Title                           Report                                 Report Results
                           Number                             Impact
                                            Date
Fiscal Year 2007        FT-AR-08-009        3/20/2008           $82,874   Management did not always pay
Postal Service                                                            invoiced amounts through eIWS
Financial Statements                                                      correctly. We did not make any
Audit – San Mateo                                                         recommendations because
Information                                                               management took immediate
Technology and                                                            corrective action. In addition, San
Accounting Service                                                        Mateo IT/ASC personnel did not
Center                                                                    always manage accounts receivable
                                                                          for which it is responsible.
                                                                          Management agreed with our
                                                                          recommendation and took corrective
                                                                          action. Further, we continued to
                                                                          identify issues with capital personal
                                                                          property See the “Progress on Prior
                                                                          Years’ Recommendations” section
                                                                          of this report.
Fiscal Year 2006        FT-AR-07-010        3/26/2007          $159,653   Personnel manually entered utility
Postal Service                                                            invoices into the eBuy system
Financial Statements                                                      without proper review and
Audit – San Mateo                                                         management and calculated Prompt
Information                                                               Payment Act interest based on
Technology and                                                            transmission dates instead of
Accounting Service                                                        settlement dates. Management
Center                                                                    implemented our recommendations
                                                                          which are now closed. Semiannual
                                                                          capital property reviews were not
                                                                          performed at 51 of 80 Sites. See the
                                                                          “Progress on Prior Years’
                                                                          Recommendations” section of this
                                                                          report.
eBuy Monthly            CA-AR-07-001        2/16/2007               $0    Eighty-five percent of the eBuy
Reconciliation                                                            accounts reviewed were not
Procedures                                                                reconciled and did not have
                                                                          adequate supporting documentation
                                                                          associated with the billing
                                                                          summaries. The majority of eBuy
                                                                          users were not aware of these
                                                                          requirements and did not retain
                                                                          adequate documentation. Guidance
                                                                          for eBuy supplies and services did
                                                                          not contain the reconciliation
                                                                          requirements and were not kept
                                                                          current. Management agreed with
                                                                          the recommendations and planned
                                                                          to take corrective action. See the
                                                                          “Progress on Prior Years’
                                                                          Recommendations” section of this
                                                                          report.




                                                        11
Fiscal Year 2010 Financial Statements Audit –                                                        FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


                                APPENDIX B: DETAILED ANALYSIS

Relocation Services Payments

The Postal Service did not review supporting documentation for relocation management
services as part of the payment process. This occurred because the Postal Service did
not have procedures to ensure invoices submitted by the RMF were supported, so
employees did not review supporting documentation. Best practices recommend review
of supporting documentation.22 As a result, the Postal Service has no assurance that
the $27 million paid in FY 2010 for these services was accurate. See Appendix C for
calculation of other impact.

The Postal Service contracted with Cartus to provide relocation management services
to authorized employees for residential transactions, movement of household goods,
and relocation expense reimbursements. Authorized subcontractors, such as moving
companies that provide approved services, submit bills to Cartus, who then reviews the
expenses for accuracy and determines if the submissions are eligible for payment.
Cartus includes the approved submissions on monthly invoices to the Postal Service.
Multiple submissions for each employee requesting reimbursement for periodic
expenses incurred can be made during the process. As a result, all of the expenses for
a single relocation might not be on a single invoice to the Postal Service.

Each month, Cartus, via electronic data interchange (EDI), transmits a file requesting
payment which automatically uploads to the Postal Service’s NAOFA-OAP system. The
NAOFA-OAP system reads the individual invoices and performs edit checks for existing
finance numbers and correct accounts. In addition, Cartus sends an e-mail to
Headquarters, Corporate Accounting, providing notification along with a Billing Advice
Report Summary. Corporate Accounting employees compare both the total number of
transactions and the value of the invoices on the Billing Advice Report Summary to the
Oracle Payables Open Interface Audit Report generated by the NAOFA-OAP system to
determine whether the number and value of transactions were transmitted accurately,
and to correct any identified errors. In addition, Headquarters Corporate Accounting
generates an Oracle Open Interface Rejections Report to determine whether any
transactions were rejected during the edit check process. They then resolve any errors
and authorize the invoices for payment. However, the Postal Service does not perform
any validation of the individual charges to supporting documentation. Rather, it relies
entirely on Cartus to determine whether the charges submitted are eligible for payment.

Prior to September 2008, Postal Service personnel traveled to Cartus periodically to
review a selected sample of invoices to help ensure the amounts charged were
supported and correct. Management stated that these reviews have not been performed
since September 2008 due to resource issues.



22
  Standards for Internal Control in the Federal Government issued by the General Accounting Office
(GAO/AIMD-00-21.3.1, dated November 1999).


                                                        12
Fiscal Year 2010 Financial Statements Audit –                                                           FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


Shuttle Service Payments

Personnel at one of two VMFs tested did not adequately review or retain supporting
documentation for shuttle service invoices prior to payment.23 This occurred because
the Postal Service does not have comprehensive standard operating procedures for
reviewing invoices from USAC, so each facility developed its own procedures for
reviewing them. At each facility, personnel performed some procedures, but neither
method ensured the accuracy of all billing information. For example, at one VMF
personnel retain service tickets24 from vendors and compare them to the
spreadsheets25 from USAC that accompany monthly invoices; however, they are unable
to validate nuisance calls or gone-on-arrivals (GOA)26 because service tickets are not
issued. At a second VMF, personnel do not retain service tickets and they only compare
the total amount recorded on the invoices to the total on the spreadsheets from USAC
that accompany the monthly invoices. As a result, there was no assurance that the
amounts USAC billed were accurate. Best practices require review of the supporting
documentation for invoiced amounts.27

The USAC provides a Service Request Schedule worksheet28 to VMFs to schedule
shuttle services. VMF personnel populate the worksheet with information such as the
post office location, vehicle number, mileage, and other data related to vehicles to be
towed or hauled and e-mail it daily to the USAC to schedule shuttle services for the
following day. VMF personnel may also add on service requests by telephone. These
‘add-ons’ or ‘as-needed’ requests are not included on the worksheets.

After the scheduled services are provided, subcontractors issue a service ticket signed
by Postal Service personnel. Add-on and roadside or as-needed requests for shuttle
service also generate service tickets. Each service ticket generates an invoice number
for use by USAC in monthly billing. GOAs do not generate service tickets. Instead,
vendors record GOAs on the USAC website.

Each month, the USAC sends a consolidated invoice to the responsible VMFs along
with a supporting spreadsheet. The supporting spreadsheet lists each individual invoice
generated during the month29 and any charges for GOAs. VMF personnel enter the
invoice information into VMAS for payment. However, VMF personnel at one site
reviewed did not compare the monthly invoices (including the supporting spreadsheet)
to service tickets, Service Request Schedule worksheets, and GOA information from the

23
   Postal Service Handbook AS-353, Guide to Privacy, the Freedom of Information Act, and Records Management,
dated September 2005 and updated with Postal Bulletin revisions through September 24, 2009 requires retention of
accounts payable records 3 years beyond the end of the fiscal year in which payment was made.
24
   The service tickets did not have any formal, specific name. We used this name based on their function.
25
   The spreadsheets accompanying the monthly invoices did not have any formal, specific name.
26
   If the VMF cancels a request without notifying USAC or the vehicle is not available and there are no other vehicles
at that location to replace the requested vehicle, USAC charges the Postal Service $35 for each such GOA.
27
   Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
28
   The Service Request Schedule worksheets did not have any formal, specific name. We used this name based on
their function. These documents are populated each day with vehicles to be shuttled/hauled. The VMFs e-mail these
worksheets to USAC daily for service the following day.
29
   Individual invoice numbers are the same as service ticket numbers.


                                                          13
Fiscal Year 2010 Financial Statements Audit –                              FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


USAC website to ensure the accuracy of all information. At a second site, personnel
were unable to confirm the GOA information as service tickets were not generated. As a
result, there was no assurance that the amounts USAC billed were accurate. Because
GOAs are infrequent and involve minor amounts, we only consider $524,056 of USAC
invoices paid for the VMF that did not review supporting documentation from
October 1, 2009 to September 30, 2010 as disbursements at risk.




                                                 14
Fiscal Year 2010 Financial Statements Audit –                                                         FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


                       APPENDIX C: MONETARY AND OTHER IMPACTS

                                              Monetary Impacts

                  Finding                         Impact Category                          Amount
             eBuy Purchases           Unrecoverable Unsupported                                $75,838
                                      Questioned Costs30
                                      Total                                                    $75,838

                                                Other Impacts

                  Finding                         Impact Category                          Amount
                                                                 31
               Relocation             Disbursements at Risk                              $27,036,975
                Services
               Payments
             Shuttle Services         Disbursements at Risk                                    524,056
               Payments
              Vehicle Sales           Assets or Accountable Items at Risk32                     15,440
                Requests
                                      Total                                              $27,576,471




30
   Unrecoverable cost that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.
31
   Disbursements made where proper Postal Service internal controls and processes were not followed.
32
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.


                                                         15
Fiscal Year 2010 Financial Statements Audit –                    FT-AR-11-008
San Mateo Information Technology and Accounting Service Center


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                 16
Fiscal Year 2010 Financial Statements Audit –                    FT-AR-11-008
San Mateo Information Technology and Accounting Service Center




                                                 17
